HHS/OIG, Audit - "Review of Medicaid and Medicare Balances at Aurora Sinai Medical Center, Milwaukee, Wisconsin," (A-05-02-00080)
Department
of Health and Human Services
"Review of Medicaid and Medicare Credit Balances at Aurora Sinai Medical
Center, Milwaukee, Wisconsin," (A-05-02-00080)
January 21, 2003
Complete Text of Report is available in PDF format
(1.06 mb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine whether the Medicaid and Medicare
credit balances recorded on Aurora Sinai Medical Centers accounting records
for inpatient and outpatient services represented overpayments reportable to
the Medicaid and Medicare programs.  We found that the provider did not
always identify and report overpayments in a timely manner to the Medicaid and
Medicare programs.  Our review disclosed that the providers policies and
procedures were not in accordance with state and federal regulations.
As a result, estimated Medicaid overpayments of $515,498 and Medicare overpayments
of $637 were not reported to the programs in a timely manner.  During our
fieldwork, the Medicare program recovered $193 of the overpayments.  We
recommend that Aurora Sinai Medical Center:  (1) ensure Medicaid and
Medicare overpayments of $515,498 and $444, respectively, are recovered by the
programs; (2) revise policies and procedures to ensure that existing and
future overpayments are identified and reported; and (3) submit adjustment
request forms for unreported Medicaid overpayments.  Generally, Aurora
Sinai concurred with the results of our review and has already initiated corrective
actions with regards to the recommendations.